                                Office of Inspector General
                               Corporation for National and
                                        Community Service




     AUDITOF CORPORATION
                       FOR NATIONAL
      AND COMMUNITY
                  SERVICEOFFICEOF
          PROCUREMENTSERVICES
            OIG REPORT    06- 40
                     NUMBER




                                               NATIONAL&
                                               COMMUNITY
                                               SERVICE=




                       Prepared by:

                   Cotton & Company
                635 SIaters Lane, 4thFloor
                  Alexandria, VA 22314




This report was issued to Corporation management on August 11, 2006. Under
the laws and regulations governing audit follow-up, the Corporation is to make
final management decisions on the report's findings and recommendations no
later than February 11,2007, and complete its corrective actions by August 11,
2007. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
  Cotton:                                                635 Slarers Lane       P:703.836.6701
Company                                                  4'Vlwr
                                                         Alexandria, VA 22314
                                                                                F: 703.836.0941
                                                                                www.cntu)ncy.com




June 9,2006

Office of Inspector General
Corporation for National and Community Service


The Office of Inspector General engaged Cotton & Company LLP to conduct a performance
audit of the Corporation for National and Community Service's (Corporation) Office of
Procurement Services for the period October 1,2003, through September 30,2005.

The primary objectives were to determine if the Corporation had an effective procurement
system in place during the period and if the system complied with applicable laws and
regulations, policies, and procedures. Our methodology included reviewing procurement
files and related Corporation accounting records and conducting interviews and discussions
with procurement and other Corporation personnel. We identified specific control
weaknesses and deficiencies and developed recommendations designed to improve
procurement functions and procedures.

We conducted our procedures in accordance with generally accepted government auditing
standards. We were not engaged to, and did not perform a financial statement audit, the
purpose of which would be to express an opinion on specified elements, accounts, or items.
Accordingly, we do not express such an opinion.

This report is intended solely for the information and use of the OIG, Corporation for
National and Community Service and U.S. Congress, and is not intended to be and should
not be used by anyone other than these specified parties.


COTTON
     & COMPANY
             LLP




Michael Gillespie, CPA, CFE
Partner
                                  OFFICE OF INSPECTOR GENERAL
                   CORPORATION         AND COMMUNITY
                            FOR NATIONAL          SERVICE



                         REPORT ON PERFORMANCEAUDITOF THE
                           OFFICEOF PROCUREMENTSERVICES
                                          AND COMMUNITY
                   CORPORATION FOR NATIONAL             SERVICE

                                               Contents

Section                                                                                              Page
Results in Brief.. .................................................................................  1
Background........................................................................................    2
Exit Conference ..................................................................................    2
Objectives, Scope, and Methodology.. .......................................................          2
Findings and Recommendations.. .............................................................          4

Appendix
Corporation's Response to Draft Audit Report
RESULTS IN BRIEF

The Office of Inspector General (OIG) engaged Cotton & Company LLP to conduct a
performance audit of the Corporation for National and Community Service's (Corporation)
Office of Procurement Services (OPS) for the period October 1,2003, through September 30,
2005. We conducted our audit in accordance with generally accepted government auditing
standards.

The primary audit objectives were to determine if the Corporation had an effective
procurement system in place during the period and if the system complied with applicable
laws and regulations, policies, and procedures.

We identified deficiencies in the procurement process in three broad categories. Specifically,
we found:

1.     Policies and Requirements

OPS employees did not adhere to Federal Acquisition Regulation (FAR) reqnirements and
the Corporation's procurement policies. We identified the following instances in which OPS
personnel were either unaware of or misinterpreted reqnirements:

       A.      Contract-funded amounts exceeded the Corporation's contractual obligation.

       B.      Contracting Officer Technical Representatives (COTRs) exceeded their
               authority.

       C.      Contractor invoices were not billed in accordance with contract terms.

       D.      Contracting personnel did not perform adequate price reasonableness
               evaluations.

       E.     Awards to other than small businesses were not justified.

       F.      Office of Human Capital approval for a temporary-services contract was not
               obtained.

2.     Records Management

OPS records were inaccurate, inadequate, or incomplete, and, thus, FAR compliance could
not be assured. We identified the following:

       A.      Contract terms and modifications contained errors.

       B.     Procurement files and forms were incomplete.
       C.      Corporation reporting in Federal Procurement Data System (FPDS) contained
               errors.

       D.      Contracts were not closed out in a timely manner.

3.     Management and Procurement Operations

Policies and assigned responsibilities were not current and known by all OPS personnel.
This can weaken overall OPS management and procurement operations. Specifically:

       A.      The Corporation did not properly designate and communicate procurement
               oversight responsibilities.

       B.      The Corporation's procurement policy document was outdated.

       C.      OPS did not perform a thorough self-assessment in the Fiscal Year (FY) 2005
               Federal Manager's Financial Integrity Act (FMFIA) process.


BACKGROUND

The Corporation was created by the National and Community Service Trust Act of 1993.
Through several programs, it offers Americans of all ages and backgrounds the opportunity
to participate in community-based service programs. These programs include AmeriCorps,
Lean and Serve America, and Senior Corps.

OPS procures $40350 million in goods and services annually through contracts, delivery
orders, purchase orders, and blanket-purchase agreements. In addition, the Corporation has
five regional service centers. Contracting officers at these service centers have authority for
procurements up to $50,000. Service center procurements exceeding $50,000 are the
responsibility of OPS. Also, the Office of Inspector General (OIG) procures its own goods
and services.


EXIT CONFERENCE

An exit conference with Corporation representatives was held on June 9,2006. The
Corporation response to this report is included as an appendix. In addition, we have included
our summary of the Corporation's comments on each finding and recommendation. The
Corporation's responses, when fully implemented, should correct the findings.


OBJECTIVES, SCOPE, AND METHODOLOGY

The audit objectives were to determine if the Corporation:
               Procured supplies and services in an efficient and effective manner and in
               compliance with applicable laws, regulations, policies, and procedures.

               Reported procurement statistics accurately to the General Services
               Administration.

               Received goods and services in accordance with contract terms.

               Used procurement information to manage procurement operations effectively
               and efficiently.

               Closed contracts in a timely manner.

               Established effective internal controls with regard to procurement.

               Documented and assessed its acquisition processes, procedures, and
               management controls in accordance with FMFIA.

The scope of our audit was limited to purchase instruments (contracts, purchase orders,
blanket purchase agreements, etc.) awarded by OPS in FYs 2004 and 2005. It included
related pre-award actions that occurred prior to FY 2004 and limited tests (with regard to
closing contracts in a timely manner) for those contracts that were awarded prior to FY 2004
but were open during FYs 2004 and 2005.

The scope did not include purchases made with non-appropriated funds. It also did not
include purchase-card acquisitions or purchase awards made by the regional service centers,
OIG, or other entities outside of Headquarters. Finally, the audit scope did not include FYs
2004 and 2005 modifications to purchase instruments initially awarded prior to FY 2004.
Total FYs 2004 and 2005 procurements within the scope of our audit are as follows:



TasWdelivery orders
Interagency agreements and modifications

Purchase orders
Blanket-purchase agreement calls
Total

Our methodology included reviewing procurement files and related Corporation accounting
records and conducting interviews and discussions with procurement and other Corporation
personnel. Our testing procedures included:

        .      Reviewing the Corporation's policies and procedures for adherence to the
               FAR.
       .      Interviewing procurement personnel and reviewing documentation to assess
              the extent of the employees' experience and training.

       .      Stratifying procurement awards by dollar amount and selecting a random
              sample of awards from each stratum for testing. We tested each sample item
              for compliance with the FAR and Corporation policies and procedures. We
              also verified that these were accurately reported to FPDS.

       .      Obtaining contract closeout information and testing a judgmental sample of
              contracts closed out during FYs 2004 and 2005 for FAR compliance.

       .      Obtaining information on the status of pre-FY 2004 procurements and testing
              this information for completeness and accuracy.

       .      Obtaining information on hid protests filed during FYs 2004 and 2005 and
              testing a sample for FAR compliance.

       .      Reviewing the OPS FY 2005 FMFIA risk assessment and discussing the
              preparation of this assessment with procurement personnel. We also obtained
              an understanding of the extent to which procurement processes are included in
              the Corporation's FY 2006 assessment of internal controls over financial
              reporting (required by Office of Management and Budget Circular A-123).


FINDINGS AND RECOMMENDATIONS

I.     Policies and Requirements

       A.     Contract-Funded Amounts Exceeded the Corporation's Contractual
              Obligation

We noted three instances in which OPS funded indefinite-quantity contracts for amounts that
exceeded the Corporation's contractual obligation, as follows:

       .      The Corporation issued a blanket purchase agreement (BPA) to CDW
              Government in February 2004 for computer-related software, hardware, and
              miscellaneous parts. The BPA states that the government is obligated only to
              the extent of authorized orders and calls made under the BPA. The BPA,
              however, was modified several times to obligate funding. Modification No. 7
              to the BPA increased funding to $358,000 and extended the performance
              period through Fehrnary 28,2007. FAR Section 13.303, Blanket Purchase
              Agreements, states that BPAs are essentially charge accounts and should not
              cite accounting and appropriation data. Each BPA funding modification
              contained such data.
       .       The Corporation awarded a contract to Wyndham Hotel, O'Hare (Chicago), in
               December 2004 to provide lodging, food, and meeting space for pre-service
               orientations. Initial funding was $170,500. This contract was modified on
               June 22,2005, to increase total funding by $499,432 to $669,932. We noted
               that:

               i.     The original contract stated that the Corporation would guarantee
                      orders of at least $60,000 and the initial funding should not have
                      exceeded this amount.
               ..
               11.    The modification exceeded the original contract ceiling of $5 16,076
                      for six events, but did not increase the scope of work. The contract
                      files contained work orders issued under this contract for five 2005
                      events totaling $268,176, or $401,756 less than the funded amount.
                      The contract specialist initially stated that the contract was increased to
                      enable the program office to obligate the funds to avoid losing them,
                      but OPS representatives later stated that the modification was executed
                      because the anticipated number of training participants increased.

               The Corporation issued a contract to the Research Foundation of SUNY in FY
               2004 to perform a field network study. The contract stated that all work was
               to be acquired by task order. The Corporation, however, funded $198,719 at
               the time of contract award, before a task order was issued.

The GAO Red Book, Appropriations Law, Chapter 7, states that:

       In a variable quantity contract (requirements or indefinite-quantity), ...obligations
       occur as work orders or delivery orders are placed.. .Thus, in a variable quantity
       contract.. .in which there is no liability unless and until an order is placed-there
       would be no recordable obligation at the time of award.

To the extent that the Corporation has funded indefinite-contracts in amounts exceeding
delivery orders placed, it has overstated its obligations and may be violating the Anti-
Deficiency Act.

Recommendation: We recommend that OPS limit amounts funded on indefinite-quantity
contracts (including BPAs) to the amount stated in issued task or delivery orders.

Corporation Response: The Corporation agrees with the recommendation. OPS no longer
cites accounting and appropriation data on blanket purchase agreements. On indefinite-
quantity contracts, the Corporation will only obligate hnds for the minimum quantity stated
in the contract and the remainder of funding will be obligated on taskidelivery orders as they
are placed against the contract.
       B.      COTRs Exceeded Their Authority

COTRs performed duties that were outside the scope of their responsibilities and for which
they did not have contracting authority. COTRs are responsible for providing technical
direction, inspection, and acceptance of contract deliverables. Only the conwacting officer
has the authority to issue task orders or to make contract modifications. We identified two
contracts for which the COTR authorized work exceeding his or her authority:

       .       Contract with the Research Foundation of SUNY. This $850,914 contract,
               as modified, states that all work will be acquired by a task order, and that
               orders may be issued only by the contracting officer. The contract file did not,
               however, contain copies of a task order, and we found no evidence in the file
               that task orders were issued to the contractor. OPS representatives explained
               that the COTR failed to provide the task orders or copies to OPS. Indications
               are that the COTR issued task orders directly to the contractor.

       .       Contract with Government Technology Services, Inc. (GTSI) for a next-
               generation Internet Protocol-based voice, data, and video
               communications system. This contract expired on June 17,2005. On May
               24, 2005, however, GTSI sent the COTR a letter stating that all contract
               deliverables had been provided except for 132 engineering support hours. The
               COTR signed the letter and returned it to GTSI without forwarding a copy to
               OPS. The contract was not modified to extend the June 17 completion date.
               The COTR subsequently approved, and the Corporation paid a $12,743
               invoice for the remaining hours claimed from July through December 2005.

We also noted the following discrepancies with work orders issued under contract with the
Wyndham Hotel, O'Hare. The contract specifies unit prices for lodging, meals, and
conference space for six events, the first to be held on February 8,2005, and states that all
work will be acquired by work order, and that work orders may be issued only by the
contracting officer. We found that:

       .       Each work order copy in the file included a signature block for the contracting
               officer, but none had been signed.

       .       Work Order No. 1 was issued for an April 17,2005, event. OPS
               representatives have been unable to identify a work order for the first event,
               which was held in February 2005.

       .       The files did not contain a copy of Work Order No. 4.

These circumstances also indicate that the COTR authorized the contractor to perform
services, thus exceeding his or her authority.

This violates both contract conditions and the Corporation's Procurement Policy No. 350,
Section I.4., which states:
       The COTR is not authorized to issue or approve changes to the contract or enter
       into any agreement, contract modification, or any other matter changing the cost
       or terms and conditions of the contract.

FAR Section 1.602-1 states:

       Contracting officers have authority to enter into, administer, or terminate
       contracts and make related determinations and findings. Contracting officers
       may bind the Govemment only to the extent of the authority delegated to
       them.

FAR Section 16.504, (a) Indefinite-quantiq contracts, states: "The Govemment places orders
for individual requirements." Further, FAR Section 16.505, (a)(2), Ordering, states:

       Individual orders shall clearly describe all services to be performed, or
       supplies to be delivered so the full cost or price for the performance of the
       work can be established when the order is placed. Orders shall be within the
       scope, issued within the period of performance, and be within the maximum
       value of the contract.

FAR Subpart 4.8, Government Contract Files, Section 4.801(a), General, states:

       The head of each office performing contracting, contract administration, or
       paying functions shall establish files containing the records of all contractual
       actions.

COTRs do not have contracting authority, thus all orders issued by COTRs are unauthorized
commitments. In addition, failure to document and monitor all issued orders and other
contract actions could result in contract spending that exceeds the authorized contract ceiling.

Recommendation: We recommend that OPS prohibit COTRs from issuing task orders on
indefinite-quantity contracts. We further recommend that OPS enhance COTR training to
ensure that all COTRs fully understand the limits of their authority and ramifications of
actions that exceed this authority.

Corporation Response: The Corporation agrees with the recommendation. The annual
COTR training reemphasizes the duties and responsibilities and specifically stresses the areas
of technical direction and limitations of authority. OPS will also emphasize that any COTR
exceeding their authority will be suspended and be required to undergo additional formal
COTR certification training to be reinstated.
       C.     Contractor Invoices Were Not Billed in Accordance with Contract Terms

Corporation staff did not approve and pay invoices in accordance with contract terms. Four
contractors submitted invoices and were compensated on a basis other than that specified in
the contract. as follows:

       .      Contract to the Research Foundation of SUNY to perform a field
              network study for $198,719 (October 2004). The contract states that it is a
              fixed priceltime-and-materials contract, and incorporates FAR Clause 52.232-
              7, Payments Under Time-and-Materials and Labor-Hour Contracts. That
              clause states that hourly rates shall include wages, indirect costs, general and
              administrative (G&A) and profit. The SUNY invoices, however, were billed
              on a cost reimbursable basis. SUNY claimed labor and G&A costs (at
              SUNY's predetermined rate of 28 percent of modified total direct costs)
              separately. Furthermore, the SUNY invoices billed for fringe benefits on
              labor which was not included in the original contract award amount.

       .      Purchase Order to GTSI for $318,292 to provide a voice, data, and video
              communications system (May 2004). This award was made under GTSI's
              Scientific and Engineering Workstation Procurement I11 (SEWP) contract
              with the National Aeronautics and Space Administration (NASA). The
              SEWP contract states that all supplies and services furnished are to be
              specified by issuance of firm-fixed-price delivery orders.

              GTSI, however, billed $12,743 for employee services at an hourly rate that
              was not specified in the contract. OPS representatives stated that the purchase
              order should have been written to reflect the agreed-upon hourly rates. This,
              however, would violate the terms of the SEWP fm-fixed-price contract.

       .      Purchase Order to Oracle (September 2004). Vendor invoices do not agree
              with purchase-order terms. This purchase order was issued on September 17,
              2004, for software support. Unit prices billed did not correspond to the
              purchase order. For example, the invoiced quarterly-support price for Product
              support, 1 Oracle Database Enterprise Edition, was $4,061. The purchase-
              order price is $9,610 for one year.

       .      Contract to the Radisson Hotel, O'Hare, for event lodging, meals, and
              meeting rooms (January 2004). The contract specified unit prices for meals
              and stated that these are "inclusive of gratuity and any other charges." The
              vendor invoice paid for Work Order #6, however, included a $50 "chefs fee
              for grilling." In addition, Work Order #1 authorized $3,500 for audio-visual
              materials, but the Corporation was invoiced $4,723.

In some cases, Corporation staff apparently allowed these invoice deviations to accommodate
the contractor. In other cases, Corporation staff may not have thoroughly reviewed the
contractor's invoice before approving payment. By allowing contractors to invoice on terms
                                            8
other than those specified in the contract, the Corporation runs the risk that it will pay more
than it should under a contract, or that it will pay for services or supplies that are outside the
contract scope.

Recommendation: We recommend that OPS establish procedures to ensure that all vendor
invoices are reviewed for accuracy and adherence to award terms before they are approved
for payment. The importance of these procedures should also be emphasized during all
COTR training sessions.

Corporation Response: The Corporation agrees with the recommendation. The annual
COTR training reemphasizes the need to review invoices to ensure the Corporation is
receiving the services/supplies before approving payment.

       D.       Contracting Personnel Did Not Perform Adequate Evaluations of Price
                Reasonableness

OPS staff did not document justifications for purchase-order awards, as required. We noted
several instances in which the Corporation received only one vendor quote in response to a
request for quotations, but the contract file did not contain a statement of price
reasonableness or any indication that contracting personnel had evaluated the reasonableness
of the single quote.

The simplified acquisition pricing memorandum for each of the following procurements
stated, as justification for price reasonableness, that only one vendor submitted a quote.
Award files contained no documentation to support further analysis or evaluation of the
reasonableness of the single quotes. The awards were:

        .      Purchase Order to MDK Cleaning Services for $47,037.

        .      Purchase Order to Double Tree for $33,000.

        .      Purchase Order to the Northwest Regional Lab for $18,980. The simplified
               acquisition pricing memorandum for this award stated that competition was
               secured from at least two bidders, but a memorandum in the file stated tbat
               only one vendor submitted a proposal. No evaluation of price reasonableness
               was documented in the file.

F A R Subsection 13.106-3(a), Basisfor award,states that before making an award, the
contracting officer must determine tbat the proposed price is fair and reasonable. If only one
vendor quote is received, the contracting officer is to include a statement of price
reasonableness in the contract file. This statement can be based on market research, price
lists, catalogs, the contracting officer's personal knowledge, or any reasonable basis.

OPS contracting personnel appear to be either unaware of the F A R requirement for
documenting price reasonableness or do not understand the requirement. Not establishing
and documenting the fairness and reasonableness of contract award amounts could result in
misspending by the Corporation.


Recommendation: We recommend that OPS provide training to its contracting personnel on
FAR requirements for establishing price reasonableness. We further recommend that the
contracting officer be required to document the determination of price reasonableness and
retain this information in the file for each award for which only one qnote is received.

Corporation Response: The Corporation agrees with the recommendation. OPS staff
received additional training in establishing price reasonableness. Contracting Officers have
been instructed to review all awards to insure price reasonableness has been determined,
especially in one qnote situations.

       E.      Awards to Other than Small Businesses Were Not Justified

We identified six purchase orders within the $2,500 to $100,000 range for small business set-
asides that were not awarded to small businesses. The contract files did not contain
documentary evidence that OPS attempted to set aside these awards for small businesses or
justification for award to other than a small business. The purchase orders were:

       .       Provo Marriott, $96,590 for lodging, food, and meeting space for Corporation
               events.

       .       Hilton Philadelphia, $45,494 for lodging, food, and meeting space for
               Corporation events.

       .       Double Tree Hotel, $33,000 for lodging, food, and meeting space for
               Corporation events.

       .       Holiday Inn Executive Center, $67,413 for lodging, food and meeting space
               for Corporation events.

       .       Northwest Regional Educational Lab, $18,980 for youth development
               training.

       .       Franklin Covey, $3,710 for training services.

FAR Section 19.201(a), General Policy, states that it is the policy of the Government to
provide maximum practicable opportunities in its acquisitions to small businesses.

FAR Subsection 19.502-2(a), Total small business set-asides, states:

       Each acquisition of supplies or services that has an anticipated dollar value
       exceeding $2,500, but not over $100,000, is automatically reserved
       exclusively for small business concerns and shall be set aside unless the
                                            10
       contracting officer determines there is not a reasonable expectation of
       obtaining offers from two or more responsible small business concerns that
       are competitive in terms of market prices, quality, and delivery. If the
       contracting officer does not proceed with the small business set-aside and
       purchases on an unrestricted basis, the contracting officer shall include in the
       contract file the reason for this unrestricted purchase.

The OPS contracting officer explained that the Corporation has been unable to identify hotels
qualifying as small businesses that can meet its delivery schedule and requirements for
hosting events. This justification, however, was not documented in the contract files for
these procurements. OPS thus cannot demonstrate that it is adhering to government policy
and complying with FAR requirements.

Recommendation: We recommend that OPS provide training to its contracting personnel on
FAR requirements for small business set-asides. We further recommend that OPS ensure
that its award files document the justification for each action between $2,500 and $100,000
that is not set aside for small business.

Corporation Response: The Corporation agrees with the recommendation. The OPS staff
has received additional training to ensure a Determination and Finding is placed in all files
when small businesses cannot meet the requirements or delivery schedule. Contracting
Officers have been instructed to ensure this documentation is in the file prior to award.

       F.      Office of Human Capital Approval for a Temporary-Services Contract
               Was Not Obtained

A purchase order to provide acquisition support services was awarded to Snelling Metro
Personnel Services in May 2004. This purchase order funded a contract specialist and a
procurement technician to assist OPS until full-time staff could be recruited. The contract
performance, as modified, was extended from May 2004 through January 2006, or 20
months. Corporation Policy No. 350 requires that the Office of Human Capital (OHC)
approve the use of any temporary services firm for more than 120 days. OPS did not obtain
OHC approval for this contract.

Corporation policy allows use of temporary agencies on a short-term basis, but states that the
Corporation does not have the authority to award personal services contracts, except
temporary and intermittent consultant services under 5 USC 5 3109(b), which allows the
Corporation to contract for temporary services for not more than one year.

Further, FAR Section 37.112, Government use ofprivate sector temporaries, requires
acquisition of temporary services to comply with agency policy. Use of temporary services
for an extended period of time could result in a violation of the FAR.

Recommendation: We recommend that, in the future, OPS obtain all necessary OHC
approvals before awarding future temporary services contracts. We further recommend that
OPS ensure that all such contracts do not exceed Corporation limits.
Corporation Response: The Corporation agrees with the recommendation. OPS will obtain
approval !?om Human Capital prior to award of any temporary services contract. All such
contracts will be closely monitored to ensure they do not exceed the time limits established
by policy.

2.     Records Management

OPS records were inaccurate, inadequate, or incomplete, and FAR compliance could not be
assured.

       A.     Contract Terms and Modifications Contained Errors

We identified discrepancies and contradictions in contract terms and modifications, as
follows:

       .      The Corporation awarded a contract to perform marketing strategies and
              media support services to Hill & Knowlton in March 2005. The contract
              states it is fixed-price with a current ceiling of $1,723,654 but specifies the
              labor rates to be billed. Hill & Knowlton invoices were billed on a time-and-
              materials basis, which, according to OPS representatives, was the contract
              intent.

       .      Purchase orders and modifications to several awards contained discrepancies
              in amounts:

              i. A purchase order to provide acquisition support services was awarded to
              Snelling Metro Personnel Services for $106,375 in May 2004. The purchase
              order detail, however, totaled $74,050, and this was the amount carried
              forward as the "previous total" on Modification No. 1 to this purchase order.
              OPS representatives explained that one of the positions to be funded was
              deleted prior to the purchase order award, but all appropriate changes were not
              made to the purchase order document.

              ii. A purchase order to administer the alternative dispute resolution program
              was awarded to the Center for Dispute Settlement in March 2004. The
              description for Modification No. 2 to this purchase order, dated February
              2005, states that the purpose of the modification was to increase the total
              obligation from $45,045 to $63,800, but the funding section shows a new
              contract total of $60,000, and the funding increase as $42,900. OPS
              representatives could not explain this discrepancy.

       .      A contract with the Wyndham Hotel, O'Hare, included the following
              discrepancies:
              i. Contract work orders authorized lodging and meals at rates per participant
              that are not detailed in the contract, which specifies unit prices per event. The
              rates are derived from the contractor's proposal, but the contract does not
              incorporate these rates.

              ii. Due to a typographical error, unit prices in the contract award did not agree
              with the base-year total.

              iii. The contract effective date was February 1, 2005. Section B.4, Date of
              Incurrence of Costs. states:

                      The contractor is entitled to reimbursement for costs in an amount
                      not-to-exceed $60,000 on or after February 8,2005 which if
                      incurred after this order had been issued, would have been
                      reimbursable under the provisions of this contract.

              This clause is confusing, because the contract was effective prior to February
              8,2005; and inappropriate, because the contract was fixed-unit price, not cost
              reimbursable.

These errors occurred when OPS staff did not review contract documents to ensure accuracy
and internal consistency prior to contract award. Errors and omissions in contract documents
can result in misunderstandings between the Corporation and its suppliers and can result in
contract over- or under-payments.

Recommendation: We recommend that OPS perform quality control reviews of procurement
documents prior to award, to ensure that terms are accurate and complete; award amounts are
internally consistent; and contract language is unambiguous.

Corporation Response: The Corporation agrees with the recommendation. Contracting
Officers have been instructed to thoroughly
                                        - . review each file prior to award. This review will
consist of ensuring all documents supporting the award are in the file, all award amounts are
consistent and accurate, and the intent of the action is clear to all parties.

       B.     Procurement Files and Forms were Incomplete

OPS contract files and procurement forms were incomplete, as follows:

       .      The file for a contract to Hill & Knowlton included an approved procurement
              request for Modification No. 14, increasing the contract ceiling by $352,375,
              but did not include a task plan or any other documentation to support the
              increased amount. Also, no evidence was contained in the file to show that
              the contracting officer had reviewed the price reasonableness for this
              modification.
       .       The file for an indefinite-quantity contract with the Provo Marriott was
               missing Work Order No. 1.

       .       OPS used a standard simplified acquisition pricing memorandum (OPS Form
               11) to document its compliance with FAR requirements on these acquisitions.
               This form is to be completed at contract award and signed by both the contract
               specialist and the contracting officer. This form was not completely filled out
               for the following procurements:

               i. The contracting officer did not sign the OPS Form 11 for purchase orders to
               the:

                       -   Provo Marriott
                       -   Holiday Inn Executive Center
                       -   Allied Technology Center

               ii. Neither the contracting officer nor the contract specialist signed OPS Form
               11 for a purchase order to Information Network.

       .       The contracting officer did not sign the Justification for Other than Full and
               Open Competition for a sole-source purchase order award to Congressional
               Quarterly.

In addition, OPS could not provide the contract file for a FY 1998 contract with Cherokee
Information Services, Inc. Its records indicate that this contract was closed out on July 22,
2005.

FAR Section 4.801, General, states:

       The head of each office performing contracting, contract administration, or
       paying functions shall establish files containing the records of all contractual
       actions.

FAR Section 4.805, Storage, Handling and Disposal of Contract Files, requires that all
contracts and related records be retained for at least 3 years following final contract payment.

OPS's Procurement Directive No. 007, Reviewing Award Files, establishes guidelines for
assuring that procurement files contain complete records of all award actions. OPS personnel
are apparently not following these guidelines. Not fully documenting all reviews,
justifications, and approvals can result in deviations from FAR and Corporation policy.
Also, the Corporation lacks documentation that may be necessary to address contract issues
and that could be useful in assessing contractor past performance for future awards.

Recommendation: We recommend that OPS establish quality control procedures to ensure
that all contract files are complete, and that all necessary forms are properly signed in
accordance with Procurement Directive No. 007.
Corporation Response: The Corporation agrees with the recommendation. OPS staff
received training in the review of award files in accordance with Procurement Directive No.
007. contracting Officers will ensure all files are complete with all required signatures.

       C.      Corporation Reporting in FPDS Contained Errors

FPDS collects, processes, and disseminates statistical data on Federal contracting. Congress,
the Government Accountability Office, Executive Branch agencies, and the public rely on
this data for information on agency contracting actions and the achievement of small
business goals.

FAR Subpart 4.6, Contract Reporting, requires that federal agencies transmit data on all
contract actions over $2,500 and modifications to those transactions regardless of dollar
value to the FPDS. We noted the following errors in the Corporation's FPDS reporting:

        .      Purchase Order to Doubletree San Francisco. The vendor was inaccurately
               reported as a small business.

        .      Purchase Order to Donna Gregory. The vendor was inaccurately reported
               as other than a small business.

        .      Purchase Order to Congressional Quarterly. The vendor was inaccurately
               reported as a small business.

        .      Purchase Order to Sharon Fries Britt. The vendor was inaccurately
               reported as other than a small business.

       .       Purchase Order to Northwest Regional Educational Laboratory. The
               vendor was inaccurately reported as a small business.

       .       Contract to the National Academy of Public Administration. This cost-
               plus-fixed-fee contract was reported as futed-price.

Inaccurate FPDS information can hamper the Federal Government's ability to accumulate
valid statistical data and to determine if it is achieving established acquisition goals, such as
awards to small business.

Recommendation: We recommend that OPS emphasize to its contracting personnel the
importance of accurate reporting on FPDS. We further recommend that OPS establish
quality control procedures to ensure that all contract actions are accurately reported on FPDS.

Corporation Response: The Corporation agrees with the recommendation. OPS staff have
been reminded to ensure they accurately enter the business size and contract type.
Contracting Officers will ensure proper reporting before award is made.
       D.      Contracts Were Not Closed Out in a Timely Manner

OPS did not close out any contracts in FY 2004 as the result of staffing constraints. It hired a
contractor in FY 2005 to perform contract closeouts, but because of the long period of
inactivity, many were not closed out within the time period established by the FAR. We
identified the following contracts that were not closed in a timely manner:

       .       Contract with STR LLC. This time-and-materials contract was closed out in
               March 2005,22 months after the final invoice was certified.

       .       Contract with the Radisson Hotel, O'Hare. This fixed-price contract was
               closed out in December 2004,24 months after the final invoice was paid.

       .       Contract with Command Management Services. This fixed-price contract
               was closed out in January 2005,23 months after the final invoice was paid.

FAR Subsection 4.804-1, Closeout by the office administering the contract, requires files for
fm-fixed-price contracts to be closed out within six months after the contracting officer
receives evidence of completion, and requires that other contracts should be closed out within
20 months after receipt of evidence of completion.

OPS is to be commended for procuring assistance in eliminating its backlog of contracts
ready for closeout. We are, however, concerned that OPS did not have adequate procedures
for identifying these contracts. It relied on program office notification that contracts were
complete and had no mechanism for identifying and following up on contract closeouts that
may have been overlooked. For example, OPS did not identify its contract with the HEAT
Center at Lowry for closeout until April 2006, although this building-lease contract expired
in December 2004.

OPS did not have a complete database or a system to track and monitor contracts awarded
but not yet closed out. OPS used its Procurement Desktop System (PDS) primarily as a
means to generate forms for individual awards and ensure that proper FAR clauses are
included. It did not use this system to produce reports and other information needed to track
the status of open contracts and identify those ready for closeout.

OMB Circular A-127, Financial Management Systems, states that Federal Government
financial management systems must:

       ...provide complete, reliable, consistent, timely and useful financial
       management information on Federal Government operations to enable central
       management agencies, individual operating agencies.. .and other subunits to
       carry out their fiduciary responsibilities; deter fraud, waste, and abuse of
       Federal Government resources; and facilitate efficient and effective delivery
       of programs.
Not identifying and closing out contracts in a timely manner could result in misstatements
(e.g., unrecorded receivables and/or overstated obligations) on the agency's financial
statements.

Recommendation: We recommend that OPS develop a system for tracking and monitoring
the status of all open award actions. We further recommend that OPS use this system to
identify and follow up on open awards that may be ready to be closed out.

Corporation Response: The Corporation agrees with the recommendation. OPS and the
Accounting Office have developed a report with completion dates to be provided to all
Executive Officers and COTRs. This report will provide alerts 90 days prior to contract
completion or expiration of the option period. It also will indicate when 75% of available
finds have been expended on a contract. This will enable OPS to begin closeout or exercise
options on time.

3.     Management and Procurement Operations

Policies and assigned responsibilities were not current and known by all personnel, a
situation which can weaken overall OPS management and procurement operations.


       A.      The Corporation Did Not Properly Designate and Communicate
               Procurement Oversight Responsibilities

 The Corporation did not have a designated Competition Advocate during FYs 2004 and
2005. FAR Subpart 6.5, Competition Advocates, requires that each agency head designate a
Competition Advocate responsible for promoting full and open competition. Competition
Advocates are to prepare annual reports on competition activity for the Senior Procurement
Executive. FAR Subsection 8.405-6, Limited Sources Justification andApproval, also
requires the Competition Advocate to approve sole-source awards over $500,000.

The OPS Director was functioning as the Corporation's Competition Advocate during FYs
2004 and 2005. The Director approved one sole-source award both as the Competition
Advocate and as the contracting officer. The OPS Director did not prepare the annual
Competition Advocate reports required by the FAR.

In February 2006, the Corporation designated the Deputy Chief Financial Officer (CFO) for
Financial Management as the Corporation's Competition Advocate. The role of the
Competition Advocate is to promote full and open competition, and thereby reduce costs to
the government. Not designating an employee for this position in a timely manner may have
resulted in restricted competition in the procurement process and increased acquisition costs.

During our audit, the OPS Director informed us that he was also the Corporation's Senior
Procurement Executive. FAR Section 6.501 states that the Comvetition Advocate should be
in a position other than that of the agency's Senior Procurement Executive. We subsequently
determined that the Corporation's Deputy CFO for Planning and Program Management was
delegated the authority to act as the Corporation's Senior Procurement Executive on May 5,
2005. We did not identify any instances in which the OPS Director was performing as the
Senior Procurement Executive, but we note that misunderstandings regarding lines of
authority could result in unauthorized or inappropriate procurement activity.

Recommendation: We recommend that the Cornoration ensure that the desienated
Competition Advocate performs all duties and responsibilities required by the FAR and
Corporation policy. We further recommend that the Corporation ensure that all personnel are
fully informed of their roles, responsibilities, and limits on their authority.

Corporation Response: The Corporation agrees with the recommendation. The designated
Competition Advocate is fully aware of the duties required of the position. All aspects of
~ k ~ e c t i 6.501
               o n are beinifollowed and the annual report has been submitted to the
Senior Procurement Executive. All OPS personnel are aware of their roles and
responsibilities and authority limitations.

       B.      The Corporation's Procurement Policy Document Was Outdated

Corporation Policy No. 350, Procuring Supplies and Services, establishes the Corporation's
procedures or procuring supplies and services. The current policy, dated June 26,2001, is
being revised to reflect changes in Federal procurement practices, as well as minor
Corporation procedural changes. Section H, Accepting and Paying for Supplies and
Services, of this policy had not, however, been updated to reflect May 2005 changes in the
Corporation's vendor-payment approval and processing procedures.

The policy identifies OPS as the point of receipt for all invoices at Headquarters, and states
that the contracting officer approves all contract invoices prior to payment. Since May 2005,
however, Finance has been designated as the receipt point for invoices, and most contract
invoices are solely approved by the COTR. Outdated policies regarding vendor-invoice
payment procedures can cause misunderstandings about responsibilities for invoice approvals
and result in Prompt Payment Act (PPA) interest penalties on late payments.

Policy No. 350 also does not address contract closeout procedures. The OPS Director stated
that all contract closeouts are performed in accordance with the FAR, but that the
Corporation did not have any internal policies and procedures for the process. Such policies
are necessary to inform all Corporation staff of their respective responsibilities and ensure
the prompt closeout of all completed contracts.

Recommendation: We recommend that OPS revise Policy No. 350, as necessary, to
incorporate current vendor-payment procedures and to establish contract closeout procedures.

Corporation Response: The Corporation agrees with the recommendation. OPS Policy No.
350 is being revised to include current vendor payment procedures and contract closeout
procedures in addition to numerous other changes and updates, including new purchase card
procedures.
       C.      OPS Did Not Perform a Thorough Self-Assessment During the FY 2005
               FMFIA Process

The Federal Managers' Financial Integrity Act (FMFIA) requires agencies to provide annual
assurance statements on their internal controls. To meet this requirement, the Corporation
has established a management control program that requires all operational areas, including
OPS, to perform self assessment once every three years. The self assessment is designed to
help OPS assess its risks and controls in place to minimize these risks. The Corporation
includes these self assessments as support for its annual assurance statements.

OPS performed a FY 2005 self assessment by completing a Corporation questionnaire, which
includes questions on 11 areas, such as organizational control environment and resource
stewardship. Next, the preparer rates risk in these areas as high, medium, or low. The
completed questionnaire, however, did not include a thorough assessment of OPS operations.

OPS did not include the detail required by Corporation policy to support each response. In
addition, the risk assessment in each area was not always consistent with, or supported by, its
responses. For example, OPS assessed control environment risk as low, even though its
responses indicated that it is addressing problems with employee training and competence
and budget issues. Conversely, OPS assessed a medium risk in procurement services,
although its responses indicated no deficiencies in this area.

Not properly evaluating and documenting risk assessments could result in the Corporation
providing inaccurate assurance on its internal controls.

Recommendation: We recommend that the Corporation communicate to OPS the importance
of performing complete self-assessments for FMFIA reporting. We further recommend that
the Corporation review each assessment for internal consistency and completeness and
follow up with OPS on responses that have not been properly documented.

Corporation Response: The Corporation agrees with the recommendation. The Director,
OPS, did not have a thorough understanding of the concepts of the report, but now can
respond to all future questions in a more accurate and understanding manner.
                                 ~ ~ ~ " n &
                                           & A L
                                 COMMUNITY
                                 SERVICE-


Date:         July 3 1,2006

To:           Carol Bates


From:         David Eisner


Subject:      Response to OIG Draft Audit Report, Review of the Corporation for
              National and Community Service OBce of Procurement Services


Thank you for the opportunity to review and comment on the draft audit report on your
review of the Office of Procurement Services (OPS). While we are pleased that the audit
demonstrated continued improvement in this area, the Corporation is committed to
fbrther strengthening its internal control over procurement operations and agrees with the
recommendations made in the report. To that end, OPS made significant improvements
to Corporation Policy No. 350, Procuring Supplies and Services, which are in the internal
clearance process, and held a training session for contracting officer technical
representatives (COTRs) in June and has scheduled another for November.

OPS provides specific responses to each of the 13 recommendations on the attachment,
noting that 12 of the corrective actions have been completed; therefore, this response
serves as notice of final action for those items. The final corrective action will be
completed upon issuance of revised Policy No. 350.

The Corporation would also like to express its appreciation for the effort your staff and
the staff of Cotton & Company applied to make this a successful and productive audit.

Attachment

cc:     Jerry Bridges, Chief Financial Officer
        Bill Anderson, Deputy CFO for Financial Management
        Ritchie Vinson, Director, Office of Procurement Services




                         1201 Ncw h r k Avcnnc, KW + \Washingron, DC 20525
                               202-60h-5000     *
                                                ww~v.nationalscrvicr.~~rg                   U SA-
                                                                                            Freedom Corps
                         Senior Corps   * AmeriCorps * Lcarrl and Serve Anrcrirn            M o b o Difference. Voiun,rrr
                                                                               Attachment


Corrective Actions

Recommendation 1 A - OPS limit amounts funded on indefinite-quantity contracts
(including BPAs) to the amount stated in issued task or delivery orders.

Corporation response - The Corporation agrees with the recommendation. The Office
of Procurement Services has changed procedures and no longer cites accounting and
appropriation data on blanket purchase agreements. On IDIQ contracts, we will only
obligate funds for the minimum quantity stated in the contract and the remainder of
funding will be obligated on task/delivery orders as they are placed against the contract.
[Corrective Action Completed]


Recommendation 1 B - OPS prohibit COTRs from issuing task orders on indefinite-
quantity contracts. OIG further recommended that OPS enhance COTR training to
ensure that all COTRs fully understand the limits of their authority and ramifications of
actions that exceed this authority.

Corporation response - The Corporation agrees with the recommendation. The annual
COTR training reemphasizes the duties and responsibilities and specifically stresses the
areas of technical direction and limitations of authority. OPS will also emphasize that
any COTR exceeding their authority will be suspended and be required to undergo
additional formal COTR certification training to be reinstated. [Corrective Action
Completed]


Recommendation 1 C - OPS establish procedures to ensure that all vendor invoices are
reviewed for accuracy and adherence to award terms before they are approved for
payment. The importance of these procedures should also be emphasized during all
COTR training sessions.

Corporation response - The Corporation agrees with the recommendation. OPS's
annual COTR training reemphasizes review of invoices to ensure the Corporation is
receiving the se~ices/suppliesbefore approving payment. [Corrective Action
Completed]


Recommendation 1 D - OPS provide training to its contracting personnel on FAR
requirements for establishing price reasonableness. OIG further recommended that the
contracting officer be required to document the determination of price reasonableness and
retain this information in the file for each award for which only one quote is received.

Corporation response - The Corporation agrees with the recommendation. OPS staff
received additional training in establishing price reasonableness. Contracting Officers
have been instructed to review all awards to insure price reasonableness has been
determined, especially in one quote situations. [Corrective Action Completed]



                                          Page I of 4
                                                                                Attachment


Recommendation 1 E - OPS provide training to its contracting personnel on FAR
requirements for small business set-asides. OIG further recommended that OPS ensure
that its award files document the justification for each action between $2,500 and
$100,000 that is not set aside for small business.

Corporation response - The Corporation agrees with the recommendation. The OPS
staff has received additional training to ensure a Determination and Finding is placed in
all files when small businesses cannot meet the requirements or delivery schedule.
Contracting Officers have been instructed to ensure this documentation is in the file prior
to award. [Corrective Action Completed]


Recommendation 1 F - OPS obtain all necessary Office of Human Capital approvals
before awarding future temporary services contracts. OIG fi~rtherrecommended that
OPS ensure that all such contracts do not exceed Corporation limits.

Corporation response - The Corporation agrees with the recommendation. OPS will
obtain approval from Human Capital prior to award of any temporary services contract.
All such contracts will be closely monitored to ensure they do not exceed the time limits
established by policy. [Corrective Action Completed]


Recommendation 2 A - OPS perform quality control reviews of procurement documents
prior to award to ensure that terms are accurate and complete; award amounts are
internally consistent; and contract language in unambiguous.

Corporation response - The Corporation agrees with the recommendation. OPS
Contracting Officers have been instructed to do a thorough review of each file prior to
award. This review will consist of ensuring all documents to the support the award are in
file, all award amounts are consistent and accurate, and the intent of the action is clear to
all parties. [Corrective Action Completed]


Recommendation 2 B - OPS establish quality control procedures to ensure that all
contract files are complete and that all necessary forms are properly signed in accordance
with Procurement Directive No. 007.

Corporation response - The Corporation agrees with the recommendation. OPS staff
received training in the review of award files in accordance with Procurement Directive
No. 007. Contracting Officers will ensure all files are complete with all required
signatures. [Corrective Action Completed]
                                                                              Attachment

Recommendation 2 C - OPS emphasize to its contracting personnel the importance of
accurate reporting on FPDS. OIG further recommended that OPS establish quality
control procedures to ensure that all contract actions are accurately reported on FPDS.

Corporation response - The Corporation agrees with the recommendation. OPS staff
have been reminded to ensure they accurately enter the business size and contract type.
Contracting Officers will ensure proper reporting before award is made. [Corrective
Action Completed]


Recommendation 2 D - OPS develop a system for tracking and monitoring the status of
all open award actions. OIG further recommended that OPS use this system to identify
and follow up on open awards that may be ready to be closed out.

Corporation response -The Corporation agrees with the recommendation. OPS and the
Accounting Office have developed a report with completion dates to be provided to all
Executive Officers and COTRs. This report will provide alerts 90 days prior to contract
completion or expiration of the option period. It also will indicate when any contract has
reached an expenditure rate of 75% of available funds. This will enable OPS to start
closeout or exercise options on time. [Corrective Action Completed]


Recommendation 3 A - The Corporation ensure that the designated Competition
Advocate perform all duties and responsibilities required by the FAR and Corporation
policy. OIG further recommended that the Corporation ensure that all personnel are fully
informed of their roles, responsibilities, and limits on their authority.

Corporation response - The Corporation agrees with the recommendation. The
designated Competition Advocate is fully aware of the duties required of the position.
All aspects of FAR 6.501 are being followed and the annual report has been submitted to
the Senior Procurement Executive. All OPS personnel are aware of their roles and
responsibilities and authority limitations. [Corrective Action Completed]


Recommendation 3 B - OPS revise Policy No. 350, as necessary, to incorporate current
vendor-payment procedures and to establish contract closeout procedures.

Corporation response - The Corporation agrees with the recommendation. OPS Policy
No. 350 is being revised to include current vendor payment procedures and contract
closeout procedures in addition to numerous other changes and updates, including new
purchase card procedures.




                                         Page 3 of 4
                                                                             Attachment

Recommendation 3 C -The Corporation communicate to OPS the importance of
performing complete self -assessments for FMFIA reporting. OIG further recommended
that the Corporation review each assessment for internal consistency and completeness
and follow up with OPS on responses that have not been properly documented.

Corporation response - The Corporation agrees with the recommendation. The
Director, OPS, did not have a thorough understanding of the concepts of the report but
now can respond to all future questions in a more accurate and understanding manner.
[Corrective Action Completed]




                                         Page 4 of 4
